                                     SOCIAL SECURITY
MEMORANDUM

Date:   February 4, 2009                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)



        The attached final report presents the results of our review. Our objectives were to
        identify the sources of erroneous death reports input into the Death Master File and
        determine whether requiring that all States submit death reports via the Electronic
        Death Registration reporting system will eliminate death reporting errors.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
  Sources of Erroneous
   Death Entries Input
into the Death Master File
       A-06-09-29095




        January 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                          Background
OBJECTIVE
Our objectives were to identify the sources of erroneous death reports input into the
Death Master File (DMF) and determine whether requiring that all States submit death
reports via the Electronic Death Registration (EDR) reporting system will eliminate
death reporting errors.

BACKGROUND
As a result of a Freedom of Information Act 1 lawsuit, 2 the Social Security Administration
(SSA) maintains a record of reported deaths known as the DMF. The terms of the
related consent judgment required that SSA make available to the Plaintiff, the Social
Security number (SSN), surname, and date of death of deceased numberholders.
Since that time, SSA has expanded the information published in the DMF to include the
decedent’s date of birth, first and middle name, and last known residential State/ZIP
code. As of October 2008, the DMF database contained approximately 85 million
records.

In our June 4, 2008 report, Personally Identifiable Information Made Available to the
General Public Via the Death Master File (A-06-08-18042), we reported that SSA’s
publication of the DMF resulted in the breach of personally identifiable information (PII)
for over 20,000 living individuals erroneously listed as deceased in the DMF. SSA
made these individuals’ SSNs; first, middle, and last names; dates of birth and death;
and State and ZIP codes of last known residences available to users of the DMF before
learning they were not actually deceased. SSA attempted to retract these disclosures
by deleting the individuals’ information from the DMF from January 2004 through
April 2007. While these deletion transactions prevented the PII from being included in
subsequent versions of the DMF, the deletions had no effect on the PII previously made
available to DMF subscribers.

We analyzed recent DMF transactions to identify the sources of erroneous death entry
inputs. We performed this work to determine whether full implementation of the EDR
reporting system would actually eliminate erroneous death inputs. EDR is a State-
sponsored initiative to improve the accuracy and timeliness of death registrations. Each
participant (for example, funeral homes, hospitals, coroners, local registrars)
electronically submits death certificate information to a State registration point, which, in
turn, forwards death information electronically to SSA. Although all States currently
send death reports to SSA, EDR reports are different because the States are provided

1
 The Freedom of Information Act, Title 5 of the United States Code, section 552, generally provides that
any person has the right to request access to Federal agency records or information.
2
    Perholtz v. Ross, Civ. No. 78-2385 and 78-2386 (D.D.C. - 1980).


Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)                        1
an opportunity to verify the SSN on these reports via an on-line SSN verification
process before submission. Since SSA has already verified the SSNs, its systems will
process these reports without additional verification, terminate the individual's benefits,
and post the date of death in its records. In theory, under EDR, death inputs by SSA
field office staff would no longer be necessary. As of July 2008, 22 States, the District
of Columbia, and New York City were participating in the EDR program.

In April 2007, update files for the DMF provided by SSA to the Office of the Inspector
General began including a field that indicated whether a State had verified the
deceased individual’s SSN before reporting the death to SSA. From April 2007 through
October 2008, SSA added approximately 3.4 million records to the DMF. The chart
below summarizes the input source of these death entries.

                                      DMF DEATH ENTRY SOURCES
                                      April 2007 through October 2008

      Field Office
         Inputs
         2,671,859
          (78.8%)




                                                                              States
                                                     Other                    703,013
                                                      16,442                   (20.7%)
                                                       (.5%)


Review of available DMF data indicated that during the same period, SSA added and
then subsequently deleted 7,597 death entries to/from the DMF. The 7,597 death
entries involved 7,530 different numberholders. 3 The fact that SSA deleted the death
entries indicated the original death reports were erroneous. Further, 2,306 of the
7,530 numberholders were receiving benefit payments from SSA in November 2008,
indicating SSA had verified the numberholders were alive. We recognize these
transactions involve a small number of individuals relative to the total number of death
entries added to the DMF (an error rate of less than one-quarter of 1 percent).
However, erroneous death entries are a serious and sensitive issue that can result in
the accidental exposure of a living individual’s PII, result in an individual’s benefits being
wrongfully terminated and subject SSA to criticism from the affected individuals, the
public and Congress.



3
  SSA added then deleted 58 different numberholders’ death entries 2 or more times during the period
reviewed.


Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)                    2
                                                      Results of Review
Our analysis showed that approximately 98 percent of erroneous death entries input
into the DMF were death reports from non-State sources. Therefore, even if all States
were to submit death reports via EDR, there could still be some erroneous death entries
input to the DMF.

                            Erroneous Death Reports Added to
                          and Subsequently Deleted from the DMF
                             April 2007 through October 2008
                       Received from           Transactions       Percent
                 Non-State Sources                  7,431             97.8
                 EDR State--Unverified                 97              1.3
                 EDR State--Verified                   16              0.2
                 Non-EDR State                         53             0.7
                                       Total        7,597           100.0

Our review of SSA data also showed that death reporting errors occurred even when
the death report was received from States via EDR. Although States had the
opportunity to verify the SSNs on the death reports, in 97 of 113 cases where EDR
States were the source of the erroneous death entry, the State did not verify the SSN of
the deceased before submitting the death report to SSA. In the other 16 instances, the
erroneous death entries were verified by the State before submission, indicating that
even with this level of assurance, death reporting errors were not completely eliminated.

Further analysis of the erroneous death entries noted that most were input by SSA
employees while processing death-related claims or while inputting death reports from
family members or funeral homes. For example, the digits of an SSN could be
inadvertently transposed during death entry input, erroneously terminating the wrong
numberholder’s record.

                      Sources of 7,597 Erroneous Death Reports
                        Description             Transactions            Percent
          SSA Staff Death Entry Input                6,754                 88.9
          First-Party Death Report to SSA              311                  4.1
          Funeral Home Death Report to SSA             257                  3.4
          EDR State                                    113                  1.5
          Non-EDR State                                 53                  0.7
          Veterans Affairs                              54                  0.7
          Other                                         55                  0.7
                                          Total      7,597               100.0




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)     3
We also obtained and reviewed available residency information for the numberholders
erroneously added to the DMF. We found that residents of States that reported death
information to SSA via EDR were nearly as likely to be erroneously added to the DMF
as residents of States that did not report death information via EDR.

                          Last Known State of Residence
                  for Numberholders Erroneously Added to the DMF
          Numberholder’s Last Known Address            Transactions           Percent
     EDR State                                              3,147                41.4
     Non-EDR State                                          3,405                 44.8
     Residence Information Incomplete or Not Available      1,045                13.8
                                                 Total      7,597               100.0

SSA management stated the Agency has taken action to address errors in manually
input death reports. In July 2007, SSA implemented a computer screen alert, as a
double check for its employees to ensure they are taking the proper action. SSA is also
considering several additional systems enhancements that could improve field office
and teleservice processes to further reduce errors.




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)      4
                                    Matters for Consideration
Most of the erroneous death entries input in the DMF originated from non-State
sources. Therefore, even if all States submitted death reports via EDR, death reporting
errors would likely continue.

Even with full implementation of EDR, additional changes would be necessary to
eliminate the cause of most erroneous death entries. First, SSA would have to stop
accepting and inputting death reports from all non-EDR sources. For example, SSA
would have to turn away widows or other family members who visit a field office to
report a death until it receives “official” notification from the State before initiating or
terminating related benefit claims. SSA would also have to stop processing death
reports received directly from other non-State sources, such as funeral homes, postal
authorities, etc. Lastly, SSA would have to require that all States actually verify SSNs
before submitting a death report via EDR, or develop procedures to validate unverified
death reports received via EDR.

SSA acknowledged it is not practical for field offices to stop accepting and processing
first-party death reports. Eliminating first-party reports of death information would delay
the processing of claims, increase erroneous payments, and cause public relations
problems. Therefore, it is imperative that SSA continue to improve the death reporting
process to reduce or eliminate erroneous death terminations and prevent the accidental
exposure of living individuals’ PII.




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)            5
                                             Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – OIG Contacts and Staff Acknowledgments




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)
                                                                            Appendix A

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable Social Security Administration (SSA) policies and procedures
    and discussed these policies and procedures with SSA staff.

   Reviewed Federal laws on disclosure of personal information.

   Identified approximately 3.4 million death entries SSA added to the Death Master
    File (DMF) and another 20,229 death entries SSA removed from the DMF from
    April 2007 through October 2008.

   We analyzed the DMF transactions and identified 7,597 death entries (representing
    7,530 different numberholders) that were both added and subsequently removed
    from the DMF during this timeframe. We reviewed SSA payment records and
    determined 2,306 of the 7,530 numberholders were receiving benefit payments as of
    November 2008.

We performed our review in Dallas, Texas, during November and December 2008 in
accordance with the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency.




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)
                                                                            Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Ron Gunia, Director, Dallas Audit Division (214) 767-6620

   Jason Arrington, Audit Manager (214) 767-1321

Acknowledgments
In addition to those named above:

   Clara Soto, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-06-09-29095.




Sources of Erroneous Death Entries Input into the Death Master File (A-06-09-29095)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial Statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
